April 9, 2003

ROBERT L. OTTO
VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT: 	Warehousing of New and Used Computer Equipment in Raleigh,
          North Carolina (Report Number OE-MA-03-004)

This report presents the results of our review of the Warehousing of New and Used
Computer Equipment in Raleigh, North Carolina (Project Number 03BS002OE000).
This was a self-initiated review resulting from observations made during the Corporate
Contact Management Audit.

In May 2002, we observed a warehouse approximately 80 percent full of new and used,
high-end and time sensitive computer equipment, some of which dated back to 1998.
Acquisition value of the equipment was estimated to be over $5 million. We concluded
some of this equipment was not being redistributed, sold, or disposed of in a timely
manner. We also concluded there was no master inventory and insufficient
accountability controls over the equipment. Consequently, the Postal Service had
not effectively utilized computer equipment, and there is the potential for loss or theft
of equipment. A September 2002 site visit revealed that significant reduction of
equipment—as much as 40 percent—had taken place.

The report made two recommendations addressing these issues. Management agreed
with the finding and recommendations and has taken or planned corrective actions
addressing those issues identified in this report. Management’s comments and our
evaluation of these comments are included in this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, Accepting and Processing, at (703) 248-2100 or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment
cc: 	Richard J. Strasser, Jr.
     Keith Strange
     T. Wayne Grimes
     Samuel S. Schmidt
     Larry K. Wills
     Susan M. Duchek
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                      United States Postal Service 

                      Office of Inspector General



     Warehousing of New and Used

       Computer Equipment in

        Raleigh, North Carolina




                                                              1
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                                             OE-MA-03-004
 Raleigh, North Carolina




                                Objective and Scope *
  Objective:

  • 	 Determine if large amounts of computer equipment were still being
      warehoused for extended periods of time in Raleigh, North Carolina.**

  Scope:

  • 	 Conducted site visits at the Postal Service Capital Boulevard
      warehouse during May and September 2002.
  • 	 Interviewed local Information Technology personnel and selected
      program managers.
  • 	 Reviewed inventory logs and other related-documents, as well as
      applicable Postal Service policies and procedures.

                 * The information presented in this briefing did not result from an audit.
                ** This condition was noted during an OIG site visit in May 2002 during
                   the Corporate Contact Management audit.
                                                              2
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                                         Conditions

     Conditions (as of May 2002):

     •	       We found a warehouse approximately 80 percent full of new and
              used, high-end and time-sensitive computer equipment.

     •	       Intent of the warehouse was to stage equipment for program
              deployment and replacement, as well as consolidation of Information
              Technology facilities in Raleigh, North Carolina.

     •	       Acquisition value of property in the warehouse was estimated by the
              Postal Service to be over $5 million.




                                                              3
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                                      OE-MA-03-004
 Raleigh, North Carolina




                                                    Conditions
  Conditions (as of May 2002) (continued):

  •	        Equipment for at least 14 major programs were held in the
            warehouse (For example: CCM, AOI, SAMS, POS ONE,
            WebEOR).***

  •	        We observed unopened equipment purchased as early as 1998,
            including uninterruptible power supply units, laser printers,
            workstations, monitors, and servers.

  •	        No master inventory list and insufficient accountability controls.



             *** Corporate Contact Management, Associate Office Infrastructure, Surface Air
                 Management System, Point-of-Service One, Web End of Run.
                                                              4
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                              Site Visit Observations 


 Observations (as of May 2002):

 We found:

 • 	 Collectively, hundreds of high-end servers, workstations, laser printers, and
     new monitors.

 • 	 High-end used computer systems (Geotel Virtual Routers, Cisco Routers,
     Robotic Tape Systems, Wrightline computer racks).

 • 	 Hundreds of used personal computers.

 • 	 Large quantity of uninterruptible power supply units.



                                                              5
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                                     OE-MA-03-004
 Raleigh, North Carolina




                                        Associate Office 

                                         Infrastructure





 HP LaserJet 4000 Printers                                        Compaq Color Monitors 


                                                              6
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                                    Stored Desktop

                                       Systems 





        Raleigh Information Technology Support Services has
        stockpiled hundreds of new and used Compaq desktop
        systems and other capital and sensitive equipment.
                                                              7
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                                      OE-MA-03-004
 Raleigh, North Carolina




                                         Other Projects




  Data Management System                                                PC MODS Monitors
  Web End Of Run Servers
                                                              8
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                                     OE-MA-03-004
 Raleigh, North Carolina




                                            Miscellaneous




        Sensitive Equipment                                        High-end Used Equipment

                                                              9
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                             Postal Service Actions 


       The Postal Service was in the process of reducing the amount
       of inventory and, as of September 2002, had further reduced
       it by approximately 40 percent since our initial site visit in
       May 2002.




                                                             10
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                           Recommendations

 We recommend the vice president, chief technology officer:

 •	        Ensure program managers routinely review equipment housed in the
           warehouse and that unneeded equipment is redistributed, sold, or
           excessed in a timely manner.

 •	        Develop appropriate inventory and complete accountability controls
           to ensure proper management of equipment, and to reduce the risk
           of loss or theft.




                                                             11
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                                        Management’s

                                         Comments

•	        Management agreed with our finding and recommendation. In
          January 2003, they published warehouse standard operating
          procedures mandating quarterly visits by program managers to
          review assets stored in the warehouse. Adherence to the procedure
          will ensure disposal of unneeded equipment in a timely manner.
          Management’s comments, in their entirety, are included in the
          appendix of this report.

•	        Management agreed with our finding and recommendation. In
          February 2003, management told us that a wall-to-wall inventory was
          completed to establish an equipment baseline. The recently
          published warehouse standard operating procedures also put in
          place strict controls to manage movement of equipment to/from the
          warehouse.

                                                             12
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in                            OE-MA-03-004
 Raleigh, North Carolina




                          Evaluation of 

                     Management’s Comments


  Management’s comments are responsive to recommendations 1 and 2 and
  the actions taken or planned should correct the issues identified in the
  report.




                                                             13
                                                    Restricted Information
Warehousing of New and Used Computer Equipment in              OE-MA-03-004
 Raleigh, North Carolina


                   APPENDIX. MANAGEMENT’S COMMENTS




                                                14
                                      Restricted Information
Warehousing of New and Used Computer Equipment in              OE-MA-03-004
 Raleigh, North Carolina




                                                15
                                      Restricted Information
Warehousing of New and Used Computer Equipment in              OE-MA-03-004
 Raleigh, North Carolina




                                                16
                                      Restricted Information
Warehousing of New and Used Computer Equipment in              OE-MA-03-004
 Raleigh, North Carolina




                                                17
                                      Restricted Information
Warehousing of New and Used Computer Equipment in              OE-MA-03-004
 Raleigh, North Carolina




                                                18
                                      Restricted Information
